TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 An Agency-Wide Recruitment Strategy and
                Effective Performance Measures Are Needed
                  to Address Future Recruiting Challenges



                                      February 23, 2009

                             Reference Number 2009-10-025




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 3(d) - Identifying Information - Other Identifying Information of an Individual or Individuals



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 23, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – An Agency-Wide Recruitment Strategy and
                             Effective Performance Measures Are Needed to Address Future
                             Recruiting Challenges (Audit # 200810023)

 This report presents the results of our review of Internal Revenue Service (IRS) recruiting
 efforts. The overall objectives of this review were to: 1) assess the efforts of the Human Capital
 Office in developing and overseeing a strategic recruitment process; and 2) determine the current
 recruitment processes and whether they have enabled the IRS to meet its hiring goals. This
 review was part of the Treasury Inspector General for Tax Administration Fiscal Year 2008
 Annual Audit Plan coverage under the major management challenge of Human Capital and is
 one of several audits planned to assess how the IRS is addressing the Human Capital
 management challenge.

 Impact on the Taxpayer
 The large number of retirements expected over the next several years presents the IRS with a
 major challenge and threatens workforce and leadership continuity. Different IRS functions
 have noted that they have not always been able to replace all of the mission critical employees
 they are losing through retirement and other forms of attrition. Effective recruiting increases the
 likelihood that the IRS can potentially hire the most qualified candidates to ensure that the best
 possible service is provided to taxpayers, while helping potential employees better learn about
 career opportunities within the IRS.
                                An Agency-Wide Recruitment Strategy and
                         Effective Performance Measures Are Needed to Address
                                       Future Recruiting Challenges



Synopsis
The IRS has taken many actions in its effort to recruit new employees. The IRS Human Capital
Office and functional offices coordinate on recruiting activities and have attracted enough
candidates to generally meet goals related to the number of employees hired. For example, the
IRS recently reported that it had exceeded its goal of hiring 1,000 veterans in Fiscal Year 2008.
Currently, the IRS’ recruitment activities are decentralized and focus on short-term hiring goals.
While the IRS has taken steps to improve recruiting, it does not have an agency-wide recruitment
strategy that includes a long-term plan for all functions involved in recruiting or a system to
measure the effectiveness of all recruiting efforts. Developing a recruitment strategy and
creating performance measures are vital, considering that: 1) significantly more vacancies might
need to be filled as baby boomers 1 retire; 2) fewer qualified candidates are entering the
workforce; 3) other Government agencies and private industry are competing for the same
resources; 4) younger generations of employees are more mobile between jobs than employees
have been in the past; and 5) the IRS needs to ensure that its employees represent the diverse
background of the public it serves.
In addition, other factors indicate that the time is right for creating an agency-wide recruitment
strategy with associated performance measures. For example, the pressure to recruit is
increasing as the attrition rate for mission critical occupations 2 within the IRS overall has
increased by 6.8 percent over the last several years, and business units have noted that they have
not always been able to replace all of the mission critical employees they are losing. In addition,
the Small Business/Self-Employed Division found, as part of an assessment of the
IRS recruitment process, that recruiters believed that their efforts were not always directed at the
most productive activities and locations.
Without a comprehensive recruitment strategy, the examples we have cited could become more
widespread and pronounced as baby boomers retire and younger workers stay in agencies for
shorter periods of time. This could affect the IRS’ ability to meet future hiring goals, keep up
with attrition, recruit sufficiently qualified personnel, make more efficient use of recruiting
resources, measure the success of recruiting efforts, and provide taxpayers with high-quality
service.




1
  Baby boomers are persons born during a baby boom, especially one born in the United States between
1946 and 1965.
2
  Mission critical occupations are those positions critical to front-line enforcement and direct support to front-line
operations needed to meet the stated IRS goals.
                                                                                                                         2
                           An Agency-Wide Recruitment Strategy and
                    Effective Performance Measures Are Needed to Address
                                  Future Recruiting Challenges



Recommendations
We recommended that the Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement develop an agency-wide recruitment strategy that is
tied to organizational objectives and desired outcomes, including long-term goals and measures
of effectiveness. In addition, we recommended that the Deputy Commissioners develop an
action plan for each initiative in the agency-wide recruitment strategy and establish centralized
control over corporate recruiting to oversee agency-wide recruitment efforts. After the
agency-wide recruitment strategy is developed, the IRS Chief Human Capital Officer should
update the Internal Revenue Manual to reflect the current recruitment process.

Response
IRS management agreed with all of our recommendations. The IRS will develop an
agency-wide recruitment strategy, with action plans for each initiative in the strategy, and
establish a centralized recruiting organization. In addition, the IRS will ensure procedures are
updated to reflect current recruitment processes. Management’s complete response to the draft
report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if your have any questions or Nancy A.
Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622–8500.




                                                                                                   3
                                   An Agency-Wide Recruitment Strategy and
                            Effective Performance Measures Are Needed to Address
                                          Future Recruiting Challenges




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Needs to Develop an Agency-Wide
          Recruitment Strategy and Design Effective Performance Measures............Page 4
                    Recommendations 1 and 2: ..............................................Page 11

                    Recommendations 3 and 4: ....................................................... Page 12


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Additional Efforts to Improve Recruiting............................Page 17
          Appendix V – Management’s Response to the Draft Report .......................Page 19
             An Agency-Wide Recruitment Strategy and
      Effective Performance Measures Are Needed to Address
                    Future Recruiting Challenges




                  Abbreviations

IRS         Internal Revenue Service
                                An Agency-Wide Recruitment Strategy and
                         Effective Performance Measures Are Needed to Address
                                       Future Recruiting Challenges




                                              Background

The mission of the Internal Revenue Service (IRS) is to provide America’s taxpayers with
top-quality service by helping them understand and meet their tax responsibilities and by
applying the tax law with integrity and fairness to all. The IRS cannot achieve this mission
without a highly skilled workforce. However, in 2006, the Office of Personnel Management
reported that approximately 60 percent of the Federal Government’s 1.6 million white-collar
employees and 90 percent of about 6,000 Federal executives will be eligible for retirement over
the next 10 years. Further, the size of the younger workforce (ages 16-24) is declining, while the
number of employees age 55 and older is increasing.
To address the IRS’ human capital 1 challenge, the
IRS Human Capital Office developed a Strategic Plan               Overall, 13.4 percent of the
                                                                 full-time permanent mission
for Fiscal Years 2005-2009 that sets forth a 5-year
                                                               critical occupations within the
human capital strategy for ensuring that the IRS builds         IRS workforce were eligible to
and maintains the workforce needed to carry out its                retire as of July 5, 2008.
mission in an efficient, effective, and productive
manner. The Plan notes that the IRS is facing a major
challenge with a large number of retirements expected
over the next several years, which threatens workforce
and leadership continuity. Overall, 13.4 percent of the full-time permanent mission critical
occupations 2 within the IRS workforce were eligible to retire as of July 5, 2008. If the IRS is
unable to replace these employees with skilled workers, it could be unable to provide quality
service to taxpayers in the future.
In addition to addressing its human capital challenge, the IRS has several significant initiatives
underway addressing other tax administration issues. For example, the IRS 1) has developed a
5-year strategic plan for enhancing the services it provides to taxpayers, and 2) is in the midst of
a complex, multiyear, multibillion dollar effort to modernize its technology and related business
processes. Also, the IRS is battling a substantial tax gap (the difference between taxes that are
legally owed and taxes that are paid on time). To enhance taxpayer service, modernize, and
battle the tax gap while experiencing a potentially large number of retirements, the IRS will be
challenged to recruit and hire a significant number of high-quality employees in a competitive
labor market. For the purpose of this report, the term “recruiting” refers to the IRS’ process of
attracting potential job candidates. The term “hiring” refers to the IRS’ process of posting jobs,
interviewing applicants, and making tentative offers of employment.

1
 The term “human capital” is used to describe the skills, abilities, and contributions of the people in any agency.
2
 Mission critical occupations are those positions critical to front-line enforcement and direct support to front-line
operations needed to meet the stated IRS goals.
                                                                                                                Page 1
                              An Agency-Wide Recruitment Strategy and
                       Effective Performance Measures Are Needed to Address
                                     Future Recruiting Challenges


Responsibility for recruiting efforts within the IRS has evolved since the agency was reorganized
in 1999. Prior to the IRS’ reorganization, each function (e.g., the Collection and Examination
functions) recruited its own staff, which resulted in a decentralized recruiting effort. In 2000, the
IRS recommended the establishment of a full-time national recruiter cadre that recruited for
all IRS functions. The IRS recruiter cadre was staffed with employees from all of the newly
created business units and placed within the Small Business/Self-Employed Division. In
addition, Embedded Human Resources offices were established within each newly created
business unit to help with the large volume of staff changes that were occurring. These offices
still exist to help local managers with human resource issues.
In 2001-2002, the IRS Strategic Human Resources Division began to focus its efforts to market
the IRS as an employer of choice and to develop IRS recruiter cadre training. In 2004, the IRS
created the Human Capital Office to provide human capital strategies and tools for recruiting,
hiring, developing, retaining, and transitioning a highly skilled and high-performing workforce.
Currently, the IRS Human Capital Office and various functional offices share much of the
responsibilities for IRS recruiting. Mainly, the IRS Human Capital Office markets the agency as
an employer of choice and helps train the recruiter cadre. The recruiter cadre and various
recruiting officials within other IRS divisions and offices 3 actively recruit new employees by
conducting such activities as attending career fairs at colleges and holding local recruiting events
directed to a particular geographical area. The recruiter cadre is currently staffed by 23 full-time
recruiters representing many of the IRS business units.
This review was part of the Treasury Inspector General for Tax Administration Fiscal Year 2008
Annual Audit Plan coverage under the major management challenge of Human Capital and is
one of several audits planned to assess how the IRS is addressing the Human Capital
management challenge. This audit addresses the IRS’ recruiting strategy. It does not address the
hiring process. However, the impact of recruiting on the hiring process is discussed. In addition,
this audit report does not discuss identifying and measuring skills gaps (a valuable input to the
recruiting process) or the time required to recruit and hire potential employees because these
topics are being covered in separate audits. Audits have already been completed in the areas of
succession planning and estimating future human resource needs. 4
This audit was conducted while changes were being suggested to the recruiting and hiring
processes throughout the Federal Government. In addition, as we were completing our audit, the
IRS was starting its own efforts to assess and improve human capital activities, such as


3
  This includes the Wage and Investment Division, which recruits for its own seasonal employees (employees who
work fewer than 12 months a year on a recurring basis based upon the amount of work available) and the Criminal
Investigation Division, which has its own part-time recruiters.
4
  Progress Has Been Made, but Important Work Must Be Completed to Ensure Timely Identification of Future
Leaders (Reference Number 2008-10-132, dated June 26, 2008) and A More Strategic and Consistent Approach to
Estimating Retirements and Other Separations Is Needed to Better Plan for Future Human Resource Needs
(Reference Number 2008-10-169, dated August 29, 2008).
                                                                                                         Page 2
                            An Agency-Wide Recruitment Strategy and
                     Effective Performance Measures Are Needed to Address
                                   Future Recruiting Challenges


recruiting. As a result, this report might not reflect the most current status of the IRS recruiting
activities. Appendix IV presents a list of several of these efforts.
This review was performed at the IRS Human Capital Office Talent, Hiring, and Recruitment
Division in Washington, D.C.; the Wage and Investment Division Human Capital Office in
Atlanta, Georgia; the Small Business/Self-Employed Division Strategic Management of Assets,
Resources, and Talent Human Capital Office in New Carrollton, Maryland; and the Large and
Mid-Size Business Division Human Capital Office in Washington, D.C., during the period
March 2008 through September 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our finding and conclusions based on our audit objectives.
Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                               Page 3
                               An Agency-Wide Recruitment Strategy and
                        Effective Performance Measures Are Needed to Address
                                      Future Recruiting Challenges




                                      Results of Review

The Internal Revenue Service Needs to Develop an Agency-Wide
Recruitment Strategy and Design Effective Performance Measures
The IRS has taken many actions in its effort to recruit new employees. The IRS Human Capital
Office and functional offices coordinate on recruiting activities and have attracted enough
candidates to generally meet goals related to the number of employees hired. For example, the
IRS recently reported that it had exceeded its goal of hiring 1,000 veterans in Fiscal Year 2008.
Currently, the IRS’ recruitment activities are decentralized and focus on short-term hiring goals.
While the IRS has taken steps to improve recruiting, it does not have an agency-wide recruitment
strategy that includes a long-term plan for all functions involved in recruiting or a system to
measure the effectiveness of all recruiting efforts. Developing a recruitment strategy and
creating performance measures are vital, considering that: 1) significantly more vacancies might
need to be filled as baby boomers 5 retire; 2) fewer qualified candidates are entering the
workforce; 3) other Government agencies and private industry are competing for the same
resources; 4) younger generations of employees are more mobile between jobs than employees
have been in the past; and 5) the IRS needs to ensure that its employees represent the diverse
background of the public it serves.
In addition, other factors indicate that the time is right for creating an agency-wide recruitment
strategy with associated performance measures. For
example, the pressure to recruit is increasing as the               The attrition rate for mission
attrition rate for mission critical occupations within the         critical occupations within the
IRS overall has increased by 6.8 percent over the last           IRS has increased by 6.8 percent
several years, and business units have noted that they               over the last several years.
have not always been able to replace all of the mission
critical employees they are losing. For instance,
Criminal Investigation Division special agent 6 staffing
decreased 3 percent between Fiscal Years 2006 and 2007, considering both new hires and staff
attrition. 7 In addition, the Small Business/Self-Employed Division found, as part of an


5
  Baby boomers are persons born during a baby boom, especially one born in the United States between
1946 and 1965.
6
  A law enforcement employee who investigates potential criminal violations of the Internal Revenue laws and
related financial crimes.
7
  Statistical Portrayal of the Criminal Investigation Division’s Enforcement Activities for Fiscal Years 2000
Through 2007 (Reference Number 2008-10-133, dated July 9, 2008).
                                                                                                           Page 4
                                 An Agency-Wide Recruitment Strategy and
                          Effective Performance Measures Are Needed to Address
                                        Future Recruiting Challenges


assessment of the IRS recruitment process, that recruiters believed that their efforts were not
always directed at the most productive activities and locations.
Without a comprehensive recruitment strategy, the examples we have cited could become more
widespread and pronounced as baby boomers retire and younger workers stay in agencies for
shorter periods of time. This could affect the IRS’ ability to meet future hiring goals, keep up
with attrition, recruit sufficiently qualified personnel, make more efficient use of recruiting
resources, measure the success of recruiting efforts, and provide taxpayers with high-quality
service.

The IRS has taken many actions in its effort to recruit new employees
Many actions have been taken to help improve the recruiting of new employees and help attract
enough candidates to generally meet hiring goals, including:
      •      The IRS Human Capital Office developed its own Recruitment Marketing Strategy for
             Fiscal Years 2008 through 2010, which includes high-level plans for marketing and
             advertising the agency but does not include plans for recruiting activities of specific
             IRS functions.
      •      In April 2008, the IRS received three awards for various marketing campaigns
             addressing and directed to seasonal employees.
      •      The IRS joined the National Employer Team of the AARP 8 to recruit mature workers
             over age 50. According to IRS officials, the IRS section of the AARP National
             Employer Team web site has become the most visited section since the IRS was invited
             to join with the AARP a year ago.
      •      Generally, the IRS met their hiring goals for mission critical occupations in Fiscal
             Years 2006 and 2007. During this time period, the IRS reported that it hired more than
             6,300 new employees to fill mission critical occupations.

The IRS needs to take action to develop an agency-wide recruitment strategy
Office of Personnel Management guidance recommends that Federal Government agencies have
a detailed recruitment strategy based upon workforce planning and an analysis of sources of
qualified applicants. In addition, the Office of Personnel Management published the Human
Capital Assessment and Accountability Framework in 2002 to provide Federal Government
agencies with human capital best practices. One of the critical success factors identified in the
Framework is the need for agencies to develop an explicit workforce planning strategy, including
a strategic recruitment plan tied to organizational objectives and desired outcomes.



8
    Formerly the American Association of Retired Persons.
                                                                                              Page 5
                            An Agency-Wide Recruitment Strategy and
                     Effective Performance Measures Are Needed to Address
                                   Future Recruiting Challenges


In our opinion, a good recruiting strategy should include but not be limited to:
•     Agency-wide recruiting goals linked to organizational objectives. For example, the
      IRS Strategic Plan includes an organizational goal to sustain an aggressive recruitment
      effort that strengthens partnerships with key colleges and universities.
•     Roles and responsibilities for all organizations participating in the recruiting process,
      including interaction among organizations.
•     Performance measures for evaluating the success of recruiting efforts.
•     Methods for evaluating recruiting efforts against performance measures and, if necessary,
      making changes in direction.
•     Integration with other key processes (e.g., determining the number of employees needed in
      the future based on estimates of attrition, determining skills needed based on identified
      current and future skills gaps, etc.).
•     Strategies for marketing the IRS as an employer of choice.
•     Strategies for addressing differing demographics (e.g., mid- and late-career professionals,
      diversity needs, college students).
In addition to Federal Government guidance and our conclusion that a recruitment strategy is
needed, an outside vendor recently came to the same conclusion. In March 2006, an outside
vendor hired by the IRS issued a comprehensive report that compared the current workforce
profile with a 5-year staffing forecast based on factors such as retirement, attrition, and hiring
trends. This report outlined data on the IRS’ recruitment efforts, including the agency’s
refocusing of its external recruitment activities. The vendor concluded that to remain a strong
player in the employment arena, the agency needed to monitor the success of its recruitment
tactics and adjust its strategy as needed. The report included a recommendation that the IRS
develop an agency-wide recruitment strategy.
While the IRS has taken actions to improve recruiting
                                                                 While the IRS has made
efforts, it has not developed a comprehensive                progress in improving recruiting
agency-wide recruitment strategy. For example,                efforts, it has not developed a
the IRS Human Capital Office developed a                       comprehensive agency-wide
Recruitment Marketing Strategy for Fiscal Years 2008               recruitment strategy.
through 2010, including high-level plans for marketing
and advertising the IRS. However, the Strategy is not
tied to organizational objectives or desired outcomes
and is limited to the IRS Human Capital Office’s recruitment role as the marketer of the agency.
In addition, neither the IRS recruiter cadre nor personnel in the Embedded Human Resources
offices we interviewed have developed their own recruitment strategies. Increasing retirements
and the resulting loss of institutional knowledge require a long-term, agency-wide recruitment

                                                                                              Page 6
                               An Agency-Wide Recruitment Strategy and
                        Effective Performance Measures Are Needed to Address
                                      Future Recruiting Challenges


strategy to ensure that the IRS can help potential employees learn about agency career
opportunities and provide quality service to taxpayers in the future.
While we believe that the need for an agency-wide recruitment strategy is clear, we are
concerned that it might be difficult to create such a strategy because recruiting activities are
decentralized and based upon annual hiring plans instead of long-term workforce planning.
IRS officials also commented that operating without an approved budget for the past several
years has impacted their ability to strategically plan. In addition, internal procedures are out of
date, so IRS organizations and offices do not have current guidance to follow related to strategic
recruitment processes. This could result in little consistency in how each of the organizations
and offices handles recruiting. Development of a recruitment strategy must include all
responsible functions and take into consideration the roles of each.
We interviewed Embedded Human Resources offices staff in three business units, and all stated
that they develop annual hiring plans based upon current vacancies, estimated retirements, and/or
available funds in the approved budget. Each Embedded Human Resources office reports to a
different business unit management team, so there might not be any continuity in how hiring
plans are developed. In addition, no long-term plans are developed that go beyond these hiring
plans, which address only the upcoming year’s staffing needs.
The IRS recruiter cadre receives the business unit hiring plans and directs its recruitment
activities to help fill these positions. The recruiter cadre works from a list of primary recruiting
locations, such as certain colleges. However, according to a study completed by the Small
Business/Self-Employed Division Research function in July 2006, some recruiters indicated that
they have little success at some of the schools on this list but do well at others.
In addition, although the recruiter cadre is staffed with experienced revenue officers 9 and
revenue agents, 10 we are concerned that the current structure might not be conducive to
addressing future recruiting challenges. Recruiter positions are temporary in nature (a 3-year
assignment), and employees need 6 months to 12 months to learn the position. These
assignments are staggered so that about one-third of the staff is replaced every year. We
understand why the IRS wants experienced revenue officers and revenue agents to return to their
original positions. However, the IRS spends time and resources each year hiring and training
new recruiters, which could detract from the challenge of recruiting a significant number of new
employees under stiff competition with other Government and private organizations. In addition,
because of the temporary nature of the assignment, there is no career path for IRS recruiters in
the recruiting function. As noted in the Small Business/Self-Employed Division Research
function study, some recruiters believed that assignment to the temporary recruiter position hurts
their careers because there is no well-defined evaluation process for recruiters or promotion


9
  Revenue officers are responsible for collecting delinquent taxes and tax returns.
10
  Revenue agents examine and audit the financial records of corporate and individual taxpayers, helping to ensure
that these taxpayers pay the appropriate taxes and comply with Federal tax laws.
                                                                                                           Page 7
                            An Agency-Wide Recruitment Strategy and
                     Effective Performance Measures Are Needed to Address
                                   Future Recruiting Challenges


potential. Therefore, the incentive for becoming part of the IRS recruiter cadre could be
diminished, and further advancement for those skilled in this area might not be available.
Lastly, the most recent Internal Revenue Manual procedures for strategic recruitment are dated
July 2002. These procedures were written prior to the establishment of the IRS Human Capital
Office and include outdated information. For example, the Manual refers to a Strategic
Recruitment Executive Council comprised of members from the major IRS operating divisions.
This Council was an advisory body for the IRS Commissioner on strategic recruitment issues
that provided guidance and resolved conflicts concerning issues that affected more than one
operating division. However, this Council was disbanded, which left the IRS with no
recruitment oversight body for all the different functions involved with recruiting. IRS officials
informed us that prior to disbandment, the Council decided to make the recruiter position
temporary. Recruiting activities are still performed by more than one function. Therefore, we
believe that this type of centralized oversight is necessary to ensure that IRS recruitment efforts
are as effective as possible.
Because there is no centralized control over corporate recruiting, these types of activities are
decentralized, the focus is on recruiting and hiring for the current year, and there are only
outdated procedures to help plan them. The IRS has not developed an agency-wide recruitment
strategy that encompasses all recruitment activities. Recruiting for qualified candidates who
meet the future needs of the agency takes planning. Strategies for building relationships and
networks with institutions providing access to well-qualified applicants are necessary.
Long-term projected retirements and future skills needs should be considered when planning
recruitment efforts, to ensure that enough qualified people are eventually hired. However,
IRS recruitment activities are focused on immediate staffing needs based on annual hiring plans.
A centralized, long-term recruitment strategy that plans for the projected future needs of the IRS,
as well as the immediate needs for each year, would result in more productive recruiting.
For example, the attrition rate for mission critical occupations has increased over the last several
years. IRS records indicate that 8.8 percent of mission critical occupation employees hired in
Fiscal Year 2002 left before the end of their first year of employment. In Fiscal Year 2006, that
percentage had increased to 15.6 percent. Therefore, even if the IRS meets its hiring goals each
year, budget constraints and attrition might leave mission critical occupations understaffed. As
shown in Figure 1, in Fiscal Year 2008, the IRS had lost employees in more than 1,500 full-time
permanent mission critical occupations as of the beginning of July.




                                                                                              Page 8
                                          An Agency-Wide Recruitment Strategy and
                                   Effective Performance Measures Are Needed to Address
                                                 Future Recruiting Challenges


                              Figure 1: Mission Critical Occupation Staffing Levels



                          54,000
        Staffing Levels




                          53,000

                          52,000

                          51,000

                          50,000
                                   Fiscal Year Fiscal Year Fiscal Year Fiscal Year
                                      2005        2006        2007        2008
                                                 Beginning of the Fiscal Year
                                                 End of the Fiscal Year

                                              * As of July 5, 2008
 Source: IRS Human Capital Office Business Performance Review, Second and Third Quarters Fiscal Year 2008.

The IRS should develop comprehensive measures of recruitment activities that
include determining the quality of newly hired employees resulting from its
recruitment efforts
Best practices outlined by the Office of Personnel Management recommend that recruitment
efforts be measured to determine their effectiveness. Potential measures of recruitment
effectiveness include the cost effectiveness of efforts and the quality and quantity of applicants.
However, the IRS has not developed adequate measures to assess the overall value of its
recruiting efforts.
The IRS Human Capital Office collects limited information to measure its marketing recruitment
efforts. The IRS captures the number of visits to the IRS Careers web site 11 and the number of
recruiting emails opened by potential applicants, but it does not measure how these data translate
to the number of applicants, number of actual hires, or quality of actual hires resulting from the
IRS Human Capital Office’s marketing recruitment efforts.
The IRS Human Capital Office has attempted to capture applicant data by using a voluntary
survey at the end of the application process, but the amount of data captured was not large
enough to be useful and the format was not ideal for further analysis. This Office is in the


11
  The IRS Careers web site is an Internet site on which the IRS provides job seekers with guidance, advice, and
information.
                                                                                                           Page 9
                            An Agency-Wide Recruitment Strategy and
                     Effective Performance Measures Are Needed to Address
                                   Future Recruiting Challenges


IRS Human Capital Office officials indicated that there have been several attempts over the years
to develop performance measures, but there were insufficient data to support the creation of
meaningful measures. In addition, the recruitment tracking system and the hiring tracking
system are the responsibility of the Small Business/Self-Employed Division, while the new exit
survey process is overseen by the IRS Human Capital Office.
Without adequate performance measures, the IRS will be unable to determine the effectiveness
of its recruiting activities. If future recruiting activities are not effective, the agency could be
unable to meet future hiring goals and keep up with attrition, while hiring the most qualified
candidates, to provide quality service to taxpayers. In addition, the IRS might be unable to focus
its recruiting on strategies that are successful and discontinue strategies that are not effective.

Recommendations
The Deputy Commissioner for Operations Support and the Deputy Commissioner for Services
and Enforcement should:
Recommendation 1: Develop an agency-wide recruitment strategy that is tied to
organizational objectives and desired outcomes. As part of developing a strategy, the Deputy
Commissioners should:
   •      Include long-term hiring goals beyond 1 year that take into consideration future
          retirement projections and anticipated future skills needs for the agency.
   •      Establish success measures to determine the effectiveness of the recruiters and all
          recruiting activities (including marketing) and develop the means to collect data to
          assess these efforts.
   •      Assess how recruiting positions within the IRS are staffed and managed, paying
          particular attention to permanent versus temporary appointments, career paths, needed
          competencies, potential differences between the processes used by functional
          recruiters, and sharing of information among functional areas.
       Management’s Response: IRS management agreed with the recommendation. The
       Deputy Commissioner for Operations Support and the Deputy Commissioner for Services
       and Enforcement will develop an agency-wide multi-year recruitment strategy.
Recommendation 2: Develop an action plan for each initiative in the new recruitment
strategy with defined implementation dates and responsible officials for actions needed to
implement the recruitment strategy.
       Management’s Response: IRS management agreed with the recommendation. The
       Director, Corporate Recruiting, will develop action plans for the initiatives in the
       agency-wide recruitment strategy.


                                                                                             Page 11
                           An Agency-Wide Recruitment Strategy and
                    Effective Performance Measures Are Needed to Address
                                  Future Recruiting Challenges


Recommendation 3: Establish centralized control over corporate recruiting to oversee
agency-wide recruitment efforts and provide suggestions for further improvement.
       Management’s Response: IRS management agreed with the recommendation and
       will establish a centralized recruiting organization.
Recommendation 4: After the agency-wide strategy is developed, the IRS Chief Human
Capital Officer should update Internal Revenue Manual guidance to reflect current recruitment
processes.
       Management’s Response: IRS management agreed with the recommendation. The
       Director, Corporate Recruiting, will publish updated Internal Revenue Manual guidance.




                                                                                       Page 12
                                An Agency-Wide Recruitment Strategy and
                         Effective Performance Measures Are Needed to Address
                                       Future Recruiting Challenges


                                                                                                      Appendix I

         Detailed Objectives, Scope, and Methodology

Our overall objectives were to: 1) assess the efforts of the IRS Human Capital Office in
developing and overseeing a strategic recruitment process; and 2) determine the current
recruitment processes and whether they have enabled the IRS to meet its hiring goals. To
accomplish our objectives, we:
I.       Determined the status of the IRS’ strategic recruitment process.
         A. Interviewed IRS Human Capital Office Talent, Hiring, and Recruitment Division
            management to determine the roles and responsibilities of the IRS Human Capital
            Office related to the agency-wide strategic recruitment process.
         B. Obtained and reviewed any plans/documentation prepared by the IRS Human Capital
            Office outlining an agency-wide strategic approach to recruitment.
II.      Determined the role of the business units’ Embedded Human Resources offices in
         developing and implementing strategic recruitment plan(s).
         A. Interviewed IRS Human Capital Office management to identify any coordination with
            the business units’ Embedded Human Resources offices related to the development of
            strategic recruitment plans.
         B. Interviewed Small Business/Self-Employed Division, Wage and Investment Division,
            and Large and Mid-Size Division Embedded Human Resources offices management
            to determine their processes for performing recruitment planning for the applicable
            business unit, any plans to revise the recruiting processes in the future, and whether
            they coordinate with IRS Human Capital Office officials.
         C. Determined the methods used by the three business units’ Embedded Human
            Resources offices to recruit for available vacancies.
         D. Reviewed documentation developed by the Embedded Human Resources offices
            related to recruitment.
III.     Determined whether the current recruitment processes have enabled the IRS to meet its
         established hiring goals for mission critical occupations. 1



1
 Mission critical occupations are those positions critical to front-line enforcement and direct support to front-line
operations needed to meet the stated IRS goals.
                                                                                                              Page 13
                           An Agency-Wide Recruitment Strategy and
                    Effective Performance Measures Are Needed to Address
                                  Future Recruiting Challenges


       A. Determined the hiring goals of the three business units from Step II for filling mission
          critical occupations during Fiscal Years 2006 and 2007.
       B. Obtained available reports documenting the actual hiring performed for mission
          critical occupations based on recruitment efforts and evaluated whether goals were
          being met.
       C. Determined whether the business units evaluated the effectiveness of the recruitment
          techniques used to fill mission critical occupations.
       D. Identified any obstacles to recruiting that the business units are encountering when
          hiring for mission critical occupations and any actions planned or taken to address
          them.

Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objectives: the IRS Human Capital Office,
Small Business/Self-Employed Division, Wage and Investment Division, and Large and
Mid-Size Business Division policies, procedures, and practices for planning, managing, and
monitoring IRS efforts to recruit qualified candidates for vacancies. We evaluated these controls
by interviewing management and reviewing applicable information.




                                                                                          Page 14
                          An Agency-Wide Recruitment Strategy and
                   Effective Performance Measures Are Needed to Address
                                 Future Recruiting Challenges


                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Thomas F. Seidell, Audit Manager
Cheryl J. Medina, Lead Auditor
Donald J. Martineau, Auditor
Carol A. Rowland, Auditor




                                                                                  Page 15
                          An Agency-Wide Recruitment Strategy and
                   Effective Performance Measures Are Needed to Address
                                 Future Recruiting Challenges


                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
IRS Chief Human Capital Officer OS:HC
Director, Talent, Hiring, and Recruitment OS:HC:THR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Commissioner, Large and Mid-Size Business Division SE:LM
   IRS Chief Human Capital Officer OS:HC
   Director, Communications and Liaison, Small Business/Self-Employed Division
   SE:S:CLD:PSP:GTL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 16
                                  An Agency-Wide Recruitment Strategy and
                           Effective Performance Measures Are Needed to Address
                                         Future Recruiting Challenges


                                                                                                     Appendix IV

                  Additional Efforts to Improve Recruiting

Several efforts are underway to improve recruiting within the Federal Government. As we were
developing recommendations to improve IRS recruiting efforts, other agencies were also
providing recommendations for strengthening recruiting activities within the Federal
Government, and the IRS was beginning its own efforts to assess and improve human capital 1
activities, such as recruiting. These activities included:
       •      The IRS Workforce of Tomorrow Task Force held its first meeting to improve the
              work environment and ensure adequate staffing and leadership in the future as we were
              completing audit fieldwork. Two of the topics planned for review are developing a
              workforce plan and developing enhanced recruiting and career progression strategies.
       •      The IRS Human Capital Office developed a draft version of a document entitled
              IRS Corporate Workforce Planning Framework Design. The Framework was created
              because the IRS Human Capital Office had identified a need to improve the agency’s
              corporate workforce planning capabilities.
       •      Small Business/Self-Employed Division officials informed us they began a project in
              August 2008 to enhance the effectiveness and efficiency of recruitment and hiring for
              mission critical occupations. The project will include efforts to identify and integrate
              workforce planning, recruitment, selection, and hiring strategies currently underway
              within the Small Business/Self-Employed Division.
       •      The Office of Personnel Management issued an End-to-End Hiring Roadmap creating
              a new approach to Federal Government recruiting and hiring and requested that
              agencies baseline measures and create improvement plans for Fiscal Year 2009 as we
              completed audit fieldwork. The Roadmap is a product of the partnership between the
              Office of Personnel Management and the Chief Human Capital Officers Council
              Subcommittee for Hiring and Succession Planning. One of the main components of
              the Roadmap is Recruiting. The Roadmap identified nine elements to the Recruiting
              component:
              o   Create or refine agency brand.
              o   Select and train recruitment team.
              o   Create recruitment and staffing plans.
              o   Identify career patterns.


1
    The term “human capital” is used to describe the skills, abilities, and contributions of the people in any agency.
                                                                                                                Page 17
                               An Agency-Wide Recruitment Strategy and
                        Effective Performance Measures Are Needed to Address
                                      Future Recruiting Challenges


           o   Develop marketing strategies.
           o   Cultivate relationships and build networks.
           o   Identify agency-specific recruiting cycles.
           o   Evaluate and measure recruitment, staffing plans, and marketing strategies.
           o   Adjust plans.
    •      In its 2007 Annual Report, 2 the IRS Oversight Board 3 discussed the importance of
           human capital and its concern about impending retirements. The Board recommended
           that the IRS change its recruitment strategies and begin recruiting like the private
           sector.
    •      In January 2008, 4 the Merit Systems Protection Board issued a report that discussed the
           Federal Government’s recruiting methods. It concluded that agencies tend to rely on
           passive recruitment strategies (e.g., Internet postings) or recruitment strategies that are
           directed at a narrow pool of applicants (e.g., college job fairs). The Board
           recommended that agencies use a variety of recruitment sources to reach qualified
           applicants from all segments of society.




2
  IRS Oversight Board Annual Report 2007, dated March 2008.
3
  The IRS Oversight Board is a nine-member independent body charged to oversee the IRS in its administration,
management, conduct, direction, and supervision of the execution and application of the internal revenue laws.
4
  Attracting the Next Generation: A Look at Federal Entry-Level New Hires, dated January 2008.
                                                                                                         Page 18
             An Agency-Wide Recruitment Strategy and
      Effective Performance Measures Are Needed to Address
                    Future Recruiting Challenges


                                                  Appendix V

Management’s Response to the Draft Report




                                                        Page 19
       An Agency-Wide Recruitment Strategy and
Effective Performance Measures Are Needed to Address
              Future Recruiting Challenges




                                                  Page 20
       An Agency-Wide Recruitment Strategy and
Effective Performance Measures Are Needed to Address
              Future Recruiting Challenges




                                                  Page 21
       An Agency-Wide Recruitment Strategy and
Effective Performance Measures Are Needed to Address
              Future Recruiting Challenges




                                                  Page 22
